<html>
<title> - STATE OF RESEARCH ON POTENTIAL ENVIRONMENTAL HEALTH FACTORS WITH AUTISM AND RELATED NEURODEVELOPMENT DISORDERS</title>
<body><pre>[Senate Hearing 111-1248]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 111-1248

                     STATE OF RESEARCH ON POTENTIAL
 ENVIRONMENTAL HEALTH FACTORS WITH AUTISM AND RELATED NEURODEVELOPMENT 
                               DISORDERS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CHILDREN'S HEALTH

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 3, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-574 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                   Subcommittee on Children's Health

                   AMY KLOBUCHAR, Minnesota, Chairman
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 DAVID VITTER, Louisiana
ARLEN SPECTER, Pennsylvania          JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 3, 2010
                           OPENING STATEMENTS

Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     2
Udall, Hon. Tom, U.S. Senator from the State of New Mexico, 
  prepared statement.............................................    46
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    84

                               WITNESSES

Anastas, Paul, Ph.D., Assistant Administrator, Office of Research 
  and Development, and Science Advisor, U.S. Environmental 
  Protection Agency..............................................     4
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Boxer............................................    22
        Senator Inhofe...........................................    24
Birnbaum, Linda, Ph.D., D.A.B.T., A.T.S., Director, National 
  Institute of Environmental Health Sciences, National Institutes 
  of Health, and Director, National Toxicology Program, U.S. 
  Department of Health and Human Services........................    28
    Prepared statement...........................................    31
    Responses to additional questions from:
        Senator Boxer............................................    39
        Senator Inhofe...........................................    43
Pessah, Isaac N., Ph.D., Director, Department of Molecular 
  Biosciences, College of Veterinary Medicine, and Director, 
  University of California Davis Children's Center for 
  Environmental Health and Disease Prevention....................    56
    Prepared statement...........................................    59
    Responses to additional questions from Senator Boxer.........    61
    Response to an additional question from Senator Inhofe.......    63
Lanphear, Bruce, M.D., MPH, Senior Scientist, Child and Family 
  Research Institute, and Professor, Simon Fraser University, 
  Vancouver, British Columbia, and Adjunct Professor, Cincinnati 
  Children's Hospital Medical Center.............................    64
    Prepared statement...........................................    66
    Responses to additional questions from Senator Boxer.........    70
    Response to an additional question from Senator Inhofe.......    72
Moen, Mary.......................................................    73
    Prepared statement...........................................    75
    Response to an additional question from Senator Boxer........    78

 
STATE OF RESEARCH ON POTENTIAL ENVIRONMENTAL HEALTH FACTORS WITH AUTISM 
                 AND RELATED NEURODEVELOPMENT DISORDERS

                              ----------                              


                        TUESDAY, AUGUST 3, 2010

                               U.S. Senate,
         Committee on Environment and Public Works,
                         Subcommittee on Children's Health,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Amy Klobuchar 
(Chair of the Subcommittee) presiding.
    Present: Senators Klobuchar, Boxer, and Udall.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Call the hearing to order.
    I want to thank all of you for being here today for this 
important hearing. As a mother of a 15-year-old daughter and as 
the Chair of this Subcommittee, protecting our children from 
exposure to harmful substances is an issue that is extremely 
important to me. I also know that it is very important to 
Chairman Boxer, who has made this a cause for much of the work 
that she's done for California and for the country. So I am 
honored to have her here as well today.
    This is why we are here, and it is to highlight the latest 
scientific research on the environmental impacts on autism and 
other neurodevelopmental disorders. Before we consider policy 
changes, we need to understand the latest science.
    Two decades ago autism and other neurodevelopment disorders 
were little-known, uncommon diseases. Today they affect 1 
million to 1.5 million Americans, and 1 in every 110 children 
born in the U.S. will be diagnosed with autism. That means that 
there will be more kids with autism than juvenile diabetes. Yet 
there is still so little known about the disease, its causes, 
or treatments.
    I know personally many of my friends have kids with autism. 
I know that they struggle not only with the treatment, but it 
is always so difficult because they never really know the 
cause.
    Sometimes when we are here in Washington, we don't realize 
that the abstract numbers that I just mentioned, those 1 
million to 1.5 million Americans, 1 in every 110 children, that 
those abstract numbers have very real implications in people's 
lives.
    I know this because I meet Minnesota families like the 
Moens, who are here with us today, that deal with the 
challenges of having an autistic child, and the frustrations of 
not having the answers. There is no cure for autism yet, so it 
is clear more research is needed. We need to look at the 
various factors that could contribute to autism so that we can 
find a cure and develop better services and treatments for 
those living with the disease.
    With the rapid growth in the incidence of autism, Congress 
took action and passed the Combating Autism Act of 2006, 
providing nearly $1 billion to combat neurological disorders 
through screening, education, early intervention, prompt 
referrals for treatment and services, and research. In last 
year's Recovery Act we invested over $10 billion in NIH for new 
research on mental health, including at least $60 million 
devoted to autism diagnosis and treatment.
    But even with this increase in research funding, we must 
continue to do our part to ensure that our researchers and 
medical professionals are better equipped to recognize and 
diagnose autism and other neurodevelopment disorders. We also 
need to increase awareness of autism. Early diagnosis and 
intervention can greatly help kid with autism. And it can 
reduce the cost of lifelong care by two-thirds.
    While we don't have a cure, there are treatments and 
therapies that can help improve the quality of life of kids 
with autism. As we know, children are more susceptible to 
environmental dangers than adults. Children consume more food 
and water, touch more dirt, because they are closer to the 
ground, and can be exposed to toxins easier than adults. 
Because their immune systems are still developing, kids are 
more likely to become sick when exposed to environmental risks.
    Along with the EPA, the National Institute of Environmental 
Health Centers for Children's Environmental Health and Disease 
Prevention Research are studying how exposure to chemicals in 
the environment could lead to neurodevelopment disorders in 
children, including autism spectrum disease. The research that 
these agencies are conducting will further our knowledge in the 
potential causes of autism and other neurodevelopmental 
disorders. In turn, these results will help us stem the 
increasing prevalence of these diseases and eliminate potential 
environmental dangers facing our kids.
    Your testimony today will go a long way in helping us 
better understand potential environmental factors related to 
autism and what the state of the research is today. Your 
stories will help us understand the urgency behind the 
research.
    I thank you all for joining us today, and I look forward to 
hearing from all of you.
    Now I will turn it over to the Chair of this Committee, 
Chairman Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Senator Klobuchar, Madam Chair, thank you 
very much.
    I want to begin by saying that we were all deeply saddened 
to learn of the passing of your mom, Senator. Our thoughts and 
prayers are with you and your family at this time.
    I want to note that Amy's mom dedicated her life to 
teaching children. I know how proud she must have been when her 
daughter founded the first subcommittee on this Committee 
dealing with children's health. So we dedicate this hearing to 
her mom.
    Today's hearing will look at the latest research on 
potential environmental factors that might harm the health of 
our children, including the ability to learn and think and 
interact with families and other people in society. The EPA and 
the National Institute of Environmental Health Science fund a 
variety of studies on neurodevelopmental disorders, including 
autism.
    I would like to extend a special welcome to Professor Isaac 
Pessah from the University of California Davis' Mind Institute, 
who will testify in the second panel. The Mind Institute 
receives Federal agency funding to conduct research on these 
very important issues.
    While science is still working to identify the cause of 
autism, exposure to toxic chemicals in the environment is one 
crucial area of inquiry. The Children's Center at UC Davis is 
conducting research on environmental health factors with 
autism, including chemicals' potential impacts on brain 
development on social behaviors, and immune system function. 
Their research is especially important now, since some data 
indicates that the occurrence of autism is growing.
    The Federal Centers for Disease Control estimates that on 
average 1 in 110 children in the United States has symptoms of 
autism spectrum disorder, or ASD. In California, State agencies 
are reporting an apparent rise in the incidence of ASD. In its 
most recent report, the California Department of Developmental 
Services found that from 1997 to 2007--while the total number 
of people served by the department increased 56 percent--the 
number of people with autism grew 321 percent.
    Autism can affect entire families and have financial and 
other effects throughout society. The Federal Interagency 
Autism Coordinating Committee estimates that autism spectrum 
disorders' cost to society is currently between $35 billion to 
$90 billion annually.
    Today's hearing focuses on research, but there are a number 
of other ways this Committee is working to protect children and 
families from toxic chemicals. For example, communities need 
help dealing with the impacts of autism and other disorders 
that may have connections to environmental health. When these 
disorders appear in concentrations or clusters, it may be an 
indication that environmental factors are playing a role in 
making people sick.
    I am introducing a bill this week to ensure that Federal 
agencies are coordinating their efforts on disease clusters as 
effectively as possible and that the resources are there to 
help the people in the areas that need them. This will include 
making sure communities that suspect they have a cluster of 
disease can call on the Government to investigate and address 
their concerns.
    My bill will also require EPA to upgrade their data 
tracking systems to strengthen the Federal Government's ability 
to investigate disease clusters. In addition, Senator 
Lautenberg's bill--the Safe Chemicals Act of 2010, introduced 
earlier this year--would take an important step toward testing 
and identifying chemicals that could harm our children before 
them come to market, instead of having to deal with 
consequences after the fact.
    What we want to do is require that the chemical industry 
prove that their chemicals are safe to use before they are 
allowed on the market, rather than the reverse. Right now 
society has to prove that the chemicals are not safe. We think 
the producers should have to prove they are safe before they 
get on the market.
    So today's hearing--and I thank Senator Klobuchar for her 
leadership on this--will help inform our efforts to protect 
America's children from environmental dangers. I look forward 
to hearing from the witnesses. I have about--I can stay until 
about 11, and then I will read the rest of the testimony. But I 
am very grateful to Senator Klobuchar for her leadership.
    Senator Klobuchar. Thank you very much, and thank you for 
your kind words about my mom, who devoted herself to kids. She 
had 30 second graders, when she was 70 years old, in her class. 
But lately, in her last few years, she was mostly watching C-
SPAN, and loved watching Senator Boxer give speeches.
    [Laughter.]
    Senator Klobuchar. She would always say, where were you? I 
saw Senator Boxer.
    [Laughter.]
    Senator klobuchar. So we have two great witnesses to begin 
here. Our first witness is Dr. Paul Anastas with the EPA Office 
of Research and Development. Dr. Anastas is the Assistant 
Administrator for the Environmental Protection Agency's Office 
of Research and Development and the science advisor to the 
agency.
    Our second witness is Dr. Linda Birnbaum with the National 
Institutes of Health. Dr. Birnbaum is the Director of the 
National Institute of Environmental Health Sciences, overseeing 
research relating to autism and other neurodevelopmental 
disorders.
    I will introduce our second panel. Senator Boxer already 
mentioned one of the witnesses, as well as the Moens from 
Minnesota, which is what guided me to make the decision I would 
be here this morning for this hearing. Because I came all the 
way in, and the work must go on.
    So we will start with you, Dr. Anastas.

  STATEMENT OF PAUL ANASTAS, PH.D., ASSISTANT ADMINISTRATOR, 
 OFFICE OF RESEARCH AND DEVELOPMENT, AND SCIENCE ADVISOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Anastas. Thank you, Chairman Klobuchar, Chairman Boxer. 
It is a pleasure to be with you here this morning.
    My name is Paul Anastas, the Assistant Administrator for 
the Office of Research and Development in EPA. It is a pleasure 
to discuss this important issue. It is also a pleasure to be 
here with my esteemed colleague from the NIEHS and the other 
panelists.
    This issue is tremendously important, when we talk about 
the potential environmental factors related to autism and other 
neurodevelopmental disorders. I am a father of two small 
children. I know how essential it is that we do everything we 
can to ensure the health and the safety and the well-being of 
our children going forward.
    Autism can be a heartbreaking neurodevelopmental disorder 
that may prevent children from fully experiencing typically 
social interactions essential for well-being, for individual 
emotional and cognitive development. Autism spectrum disorder 
is a range of complex neurodevelopmental disorders 
characterized by social impairments, communication 
difficulties, and restricted and repetitive pattern disorders.
    Autistic disorders, sometimes called autism disorders, or 
classical autism, is the most severe form of ASD. Other 
conditions along the spectrum include the milder form of ASD 
known as Asperger's Syndrome.
    Scientists are uncertain about what causes ASD. However, 
many believe it could result from a variety of factors, 
including a combination of genes, environmental exposures, and 
gene-environment interactions. Evidence suggests that the rates 
of ASD are increasing in the United States as both of you 
mentioned in your opening statements.
    As you know, children are especially susceptible to the 
effects of chemicals in the environment, because they eat, 
drink, and breathe far more than their body weight than adults. 
They absorb a greater proportion of many of the chemicals in 
the environment than adults do, and due to hand-mouth behavior, 
young children tend to have higher exposures to these 
contaminants.
    Because of its extraordinary complexity, prenatal and early 
postnatal brain and nervous system development can be disrupted 
by environmental exposures at much lower levels than would 
affect adults. We are learning that there are critical windows 
of susceptibility, both prenatally and in early childhood, in 
which the effects of exposures to environmental contaminants 
can be significantly more severe and can lead to permanent and 
irreversible disability. For these and many other reasons EPA 
is especially concerned about the potential effects of 
environmental chemicals on children's health and 
neurodevelopment.
    Now, it has been suggested that improvements in diagnosis 
may be contributing to the perceived increase in ASDs. However, 
one recent publication from research supported by the EPA and 
NIEHS evaluated the rise in autism incidence in California from 
1990 to 2006. They found that even when factors such as early 
diagnosis, changes in diagnostic criteria, and milder cases 
were taken into account they did not fully explain the observed 
increase. As a result, the extent to which the continued rise 
represents a true increase in the occurrence of autism still 
remains unclear.
    Additionally, through a recent evaluation of autistic 
disorder data from long-term, approximately 10-year studies, 
EPA scientists found significant and surprisingly uniform 
timing of increases and cumulative incidence from 1988 to 1989, 
in Danish, Californian, and worldwide data sets. The challenge 
is to determine what specific environmental factors may 
contribute to the onset or severity of autism and other 
neurodevelopmental disorders so that exposure to these can be 
reduced.
    At EPA we are conducting research to determine how 
environmental chemicals could impact the development and 
function of the human nervous system through our intramural and 
extramural research programs. EPA's intramural research program 
focuses on susceptibility to chemicals and the factors 
underlying the susceptibility, the chemical mechanisms of 
action, and the relevance of effects to human health.
    There are now alternative models and methods, including 
computational toxicology, which allows us to evaluate a much 
larger number of substances in the same amount of time. We have 
an extensive extramural research program that includes the 
children's research centers that we work hand in hand with our 
partners at NIEHS. And we are going to hear far more about 
those today, including the research of the University of 
California at Davis Center for Children's Environmental Health, 
which is looking at possible genetic and environmental risk 
factors that may contribute to the incidence and severity of 
childhood autism, to understand and characterize common 
patterns of dysfunction in this disease.
    Also, we have studies in the Children's Center at the 
University of Medicine and Dentistry of New Jersey and several 
other centers, which we will be happy to discuss and are 
detailed in our written testimony.
    Thank you for the opportunity to speak to you here this 
morning.
    [The prepared statement of Mr. Anastas follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
       
    Senator Klobuchar. Thank you very much.
    Dr. Birnbaum.

STATEMENT OF LINDA BIRNBAUM, PH.D., D.A.B.T., A.T.S., DIRECTOR, 
 NATIONAL INSTITUTE OF ENVIRONMENTAL HEALTH SCIENCES, NATIONAL 
    INSTITUTES OF HEALTH, AND DIRECTOR, NATIONAL TOXICOLOGY 
     PROGRAM, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Birnbaum. Chairman Klobuchar, Chairman Boxer, and 
Senator Udall, I am pleased to present testimony today on 
research related to neurodevelopmental disorders and to 
specifically discuss if environmental exposures are linked to 
the development of autism spectrum disorders.
    My name is Linda Birnbaum. I am the Director of the 
National Institute of Environmental Health Sciences at the 
National Institutes of Health and the Director of the National 
Toxicology Program at the Department of Health and Human 
Services.
    Scientists have made considerable progress in understanding 
how the brain and nervous system grow and function. It is 
becoming clear that neurodevelopmental disorders, such as 
autism spectrum disorders, attention deficit hyperactivity 
disorder, and learning disorders are likely due to a complex 
interplay of both genetics and the environment. Our research 
indicates that environmental exposures, including low-dose 
exposures, and lifestyle choices before a baby's birth and 
during early childhood do have an effect on the developing 
brain.
    Autism spectrum disorders are developmental conditions that 
have increased in U.S. children in the past several years. 
NIEHS has significantly increased our funding this year to $9.3 
million. I am also an active member of the Interagency Autism 
Coordinating Committee, a group of Federal agencies, autism 
advocates and parents who plan and coordinate a research 
agenda.
    Our two largest efforts on autism are the EARLI study and 
CHARGE. In the EARLI study researchers at the Drexel 
University, University of California, and Johns Hopkins 
University are studying mothers who already have one child with 
autism and who are pregnant again. This study is one of the 
largest studies of its kind. It will follow 1,200 mothers 
during their pregnancy and their new babies until the age of 3 
to identify prenatal and postnatal exposures that may be linked 
to autism.
    The CHARGE study, which you will much more about from Dr. 
Pessah, which is coordinated by the NIEHS EPA Children's 
Centers at the University of California Davis, is looking at a 
wide range of environmental exposures and their effects on 
early neurodevelopment. This study is following more than 1,600 
children in California from three groups: children with autism, 
children with other developmental days, and normally developing 
children.
    So far, the most striking findings relate immune system 
alterations in children with autism, which points to the need 
for further study of the immune and nervous systems in the 
etiology of autism spectrum disorder. It is also important to 
note that the CHARGE study found no difference in mercury 
levels between children with autism and normally developing 
children.
    I am happy to report that the American Recovery and 
Reinvestment Act allowed NIH to increase its support for autism 
research. Our funding is being used to study air pollution, 
polyfluoroalkyl compounds, better known as PFCs, and PFOA is 
the most common one; PFCs are the ones we think about, 
endocrine disrupting chemicals, smoking, alcohol use, 
medication, and infections as potential risk factors for 
autism.
    The work we fund on autism and ASD is an important part of 
our overall investment in children's neurological development, 
which totaled more than $29 million last year, almost $18 
million from the regular NIEHS appropriations, plus $11.5 
million in ARRA funds. Development of the nervous system begins 
in the womb and extends throughout childhood.
    During periods of rapid development, the brain is 
vulnerable. Even small changes in the timing of critical 
developmental events can have major consequences for brain 
structure and function. We call these critical developmental 
periods windows of susceptibility, during which different 
chemicals can affect the brain in specific and damaging ways.
    For example, the amount of lead that is toxic to an infant 
is much less than the amount that would be toxic for an adult. 
So infancy, in this case, is a window of susceptibility.
    Many studies have shown that mercury is also a 
developmental neurotoxicant. Studies in Bangladesh have found 
that arsenic and manganese in drinking water are associated 
with decreases in intelligence.
    But metals are not the only toxic agents to affect IQ, 
learning, and memory. A study published last year from Columbia 
University showed that a mother's exposure to PAHS released 
from burning fossil fuels and tobacco can adversely affect a 
child's IQ. The IQ scores of children exposed in utero to high 
levels of PAHS were almost five points lower than those of less 
exposed children. In another report, Columbia University 
examined prenatal exposure to a common flame retardant, PBDEs. 
Core blood specimens were analyzed for selected flame retardant 
chemicals. The same children were examined for neurodevelopment 
at ages 1, 2, 3, 4, and 6. The research showed that these 
children, who had higher blood concentrations of the flame 
retardants, scored lower on tests of mental and physical 
development.
    In addition to effects on learning, these same chemicals 
can also affect behavior. Early lead exposure has been 
associated with aggressive behavior at different age levels, 
from toddler to adolescent. Researchers at our Cincinnati 
Children's Center found that childhood exposure to lead and 
prenatal exposure to tobacco are risk factors for ADHD, 
possibly accounting for one-third of the cases in U.S. 
children.
    A recent study from Mount Sinai's Children's Environmental 
Health Study found that increased concentration of pthalates in 
the mothers during pregnancy were associated with increased 
aggression as well as conduct problems, attention problems, and 
depression in the children. Pesticides are also being 
investigated in relation to ADHD. Our Harvard Center just 
released a report showing an association between exposure to 
organophosphate pesticides and development of ADHD.
    In summary, environmental influences on brain development, 
behavior, and other neurological outcomes of public health 
concern are a rapidly growing area of environmental health 
sciences and a high priority for NIEHS. We believe that our 
research will advance our understanding of these conditions, 
including autism, providing new information for prevention and 
treatment for children.
    Thank you for the opportunity to testify. I would be happy 
to answer questions.
    [The prepared statement of Ms. Birnbaum follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
    Senator Klobuchar. Thank you very much to both of you.
    I was just trying to put myself in the shoes of like a 
pregnant mom right now, or someone who has a baby that they are 
afraid has autism, and they don't know what is wrong, and 
trying to figure out exactly what the state of the research is. 
I thought your comment at the end, Dr. Birnbaum, was something 
we all believe, that chemicals do affect children's development 
and their brain. That is why I worked so hard on that 
children's product bill with the lead, and the Chairman and 
others and Senator Udall have worked on lead paint and other 
issues like that.
    But I wanted to just narrow in on this autism issue. You 
mentioned two things specifically, was that one of the studies 
had shown no difference in the mercury levels of kids with 
autism and with not. Is that right?
    Ms. Birnbaum. That is correct. That is from the CHARGE 
study. I think maybe Dr. Pessah will talk more about that.
    Senator Klobuchar. Then the other thing you mentioned, 
though, there was a difference in the immune systems. Do you 
want to elaborate on that?
    Ms. Birnbaum. I think I can just kind of give you the 
bottom line. It appears that the immune systems of these 
children may be altered. They appear that they may be showing 
more symptoms, or symptoms that may develop into autoimmunity.
    And again, I think Dr. Pessah will talk more about those 
findings. But I think it is important to understand that 
autoimmunity is another of the conditions in our country which 
is rapidly increasing over the past 10 to 20 years.
    Senator Klobuchar. So, could that have something to do--
could that be the key for us trying to figure out the cause 
here because of the difference that has been found, or not?
    Ms. Birnbaum. No, no, I think the point is that there is 
growing suggestion that environmental factors may be playing a 
role in the increase in autoimmunity. Part of the syndrome, if 
you want to use that word, for autism spectrum disorders, may 
involve alterations in the immune system.
    Senator Klobuchar. OK. So what you are saying is, and I 
will let you answer this, too, Dr. Anastas, is that it is 
finding that there is a difference with the autoimmune systems. 
We know that autoimmune system differences can be attributed to 
environmental factors, and that that could lead us to believe 
that the environmental factors could have something to do with 
who has autism and who doesn't.
    Ms. Birnbaum. I think alterations in the immune system may 
be one part of the autism puzzle. I think the role of 
environmental factors in the increase in autism is in large 
part because you can't--our genes don't change over a 
generation. Our genes take multiple generations to change. And 
the rapid increase in autism, which was indicated by work that 
was done at UC Davis. The CDC has done continual analyses 
indicating that 1 in 70 boys is developing autism.
    Senator Klobuchar. I take it that you both believe there 
has actually been an increase? Some people say, oh, it is 
diagnosing that they didn't do before. But you both believe 
there has been an increase?
    Ms. Birnbaum. Right. I think the study that, again, that is 
coming out of the UC Davis group that Dr. Anastas referred to, 
clearly shows that at least in California only 30 percent of 
the increased incidence can be potentially due to differential 
diagnosis.
    Senator Klobuchar. Dr. Anastas.
    Mr. Anastas. Thank you.
    Yes, and I would just add that in addition to the study 
that was just referred to, there is an additional study 
worldwide that shows that the rise in incidence cannot be 
attributed to changes in diagnosis alone.
    There are a couple of very important points that have been 
made that I just wanted to emphasize. This window of 
susceptibility is something that can't be overemphasized. When 
we talk about what the doses or the levels of mercury, for 
example, might be the same, we need to recognize that that is 
not the entirety of the story. When you are exposed, whether it 
is in utero or in early childhood, it can be a difference in 
reaction because of the level and the stage of development that 
you are in.
    So merely because one person may be exposed to the same 
levels as another, that is not the entirety, and that is 
something that is a very important area for research.
    The other is we often get into this discussion about 
whether it is environment or genetics. I think there is a 
growing body of knowledge that it is not one or the other. As 
Dr. Birnbaum just stated, our genetics can't change this 
quickly in order to explain the increase in incidence. So what 
we are saying is that it is an interaction of the environment 
and genetic susceptibility, where certain triggers are released 
because of environmental exposures.
    Senator Klobuchar. Thank you.
    Senator Boxer.
    Senator Boxer. First of all, thank you very much, both of 
you, for your clarity. I remember many years ago meeting, when 
I was in local government, meeting parents who had children 
with autism. And then, they were being told it was the way they 
were raising their children, that there was something with the 
mother-child relationship. Honestly, I saw the look on parents' 
faces. They were devastated. That is where the science was.
    We clearly have moved to a different place now, where we 
are looking at the genes, and we are looking at the chemicals 
that either the parents or the child have been exposed to. So I 
think there is a very important message to parents out there: 
do not give up hope. We are going to figure this thing out.
    The fact that we are only spending $9 million on autism, 
something that affects 1 out of 110 children, is just amazing 
to me. And it goes to where our priorities are. So I wanted to 
ask Director Birnbaum, again, just if you could lay out for me 
how much did you get in the Economic Recovery and Reinvestment 
Act to facilitate the research. And if you could slowly tell me 
what that is exactly.
    Ms. Birnbaum. NIH has, as you know, got $10 billion, or 
$10.4 billion, including the comparative effectiveness research 
dollars under the Stimulus Act. NIEHS, including our Superfund 
program, got about $190 million to conduct research under the 
Stimulus Act. Our funding that we have committed of our ARRA 
funds was about $9 million, no, $11.5 million, excuse me, 
related to neurodevelopmental disorders. About $4.9 million of 
that was stimulus funding.
    Senator Boxer. I am really confused. How much of the 
Economic Recovery Act funds that went to NIEHS autism research?
    Ms. Birnbaum. Specifically, of the $190 million, let's say, 
put about $5 million of that $190 million.
    Senator Boxer. Five million in addition to the $9 million?
    Ms. Birnbaum. No, that is part of the $9 million. Our base 
funding was, in 2009, was $4.3 million for autism.
    Senator Boxer. So the base funding is about $4 million. And 
you added $5 million. So you doubled the amount. So without the 
ARRA funding, we go back to $4 million, $4.5 million research 
on autism, is that right?
    Mr. Birnbaum. I think it is hard to say exactly, because we 
do see autism as a priority, and we are trying to increase our 
amount of funding to look at neurodevelopmental effects.
    Senator Boxer. Well, I hope you will let us know, all of us 
here care a lot about this, and others who are not here who do 
care. If you feel that we could do a lot more, if we had a 
little more funding here. Because following Chair Klobuchar's 
questions, it is clear to me that there are, we are coming 
along, we are narrowing down. It may be this, some 
susceptibility to certain chemicals and toxins because of 
certain genes or other factors.
    So I think, and that is why putting that together with our 
cluster bill that we are introducing, and Senator Lautenberg's 
bill on making sure the chemicals are safe before they are 
introduced, I think we are kind of having a fairly clear path 
here to where we are going.
    That really covers my questions. Thank you.
    Senator Klobuchar. Thank you very much.
    Senator Udall.
    Senator Udall. Thank you, Chairman Klobuchar, and thank 
you, both of you, for focusing in on this issue.
    I would like to put my opening statement in the record and 
go directly to questions, if that is acceptable here.
    Senator Klobuchar. Without objection, so ordered.
    [The prepared statement of Senator Udall follows:]

                     Statement of Hon. Tom Udall, 
               U.S. Senator from the State of New Mexico

    Thank you, Chairman Klobuchar, for calling this hearing 
into an issue that is of great concern to families in New 
Mexico and around the country.
    A number of my constituents have contacted my office, 
describing their families' challenges with autism and our 
frustrating inability to learn more about the causes and cures 
for this condition.
    According to our testimony here today, our top researchers 
believe that there is a significant environmental component to 
autism. Genetics cannot explain the rapid rise in autism, so 
they suspect chemical exposure may trigger or worsen neuro-
developmental disorders.
    I hope this hearing will support those ongoing efforts, and 
I think that it is important to put the unknown links between 
autism and environmental toxic exposure in the bigger picture.
    As I and others on this Committee have stated, Federal 
toxic chemical regulation is broken and needs to be addressed.
    Our Nation's laws that are supposed to regulate toxic 
chemicals do not even require chemical companies to submit 
health and safety studies for the chemicals that are included 
in everyday household products.
    The Washington Post published an article yesterday titled 
``U.S. regulators lack data on health risks of most 
chemicals,'' which I would like to include in the record.
    The article references the recent recall of 28 million 
boxes of the Nation's most popular children's cereals because a 
petrochemical known as ``2-methyl naphthalene'' accidentally 
ended up in cereal. The chemical is apparently used in the foil 
packaging.
    According to the article, ``the Food and Drug 
Administration has no scientific data on its impact on human 
health. The Environmental Protection Agency also lacks basic 
health and safety data even though the EPA has been seeking 
that information from the chemical industry for 16 years.''
    We have had several hearings already this year underlining 
the need to reform the Toxics Substances Control Act, and I 
hope we will continue to make the case for action.
    I believe that we can all agree that science should drive 
decisionmaking and that we should take precautions when we 
expose children to potentially toxic chemicals. The need for 
testing is basic and obvious.
    If we do not, our children and our grandchildren will 
continue to be guinea pigs in an uncontrolled experiment 
testing the impacts of thousands of industrial chemicals on the 
human body.

    [The referenced article follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Udall. One of the things that I would like to ask 
about, and I would like to cite a few facts to set the stage, 
an April article in the journal Current Opinion in Pediatrics 
states that children today are surrounded by thousands of 
synthetic chemicals. Two hundred of them are neurotoxic in 
adult humans and a thousand more in laboratory models. Yet 
fewer than 20 percent of high volume chemicals have been tested 
for neurodevelopmental toxicity.
    According to the EPA, there are 3,000 chemicals that are 
classified as high production volume. These are chemicals that 
the U.S. imports or produces at a rate of more than 1 million 
pounds per year. According to the EPA, over 40 percent of these 
have not been tested for basic toxicity.
    And I would like to ask both of you, do you think the 
suspected links between chemical exposure and autism and other 
neurodevelopmental disorders show the need for chemical makers 
to provide more information and health studies about their 
products? And part of that, yesterday part of that question, I 
don't know whether you saw the post yesterday, but on the first 
page was an article that in cereal, boxes of cereal, which--
kids are eating most of the cereal, an unsettling surprise. The 
Kellogg recall shows that U.S. lacks data on risks of many 
chemicals. And there is a chemical in there.
    And one of the things it highlighted in the story is the 
chemical companies do not test, they do not test these kinds of 
chemicals. Because if they test, they are required to turn it 
over to the Government. So they just decide, well, we don't 
want to know what is in it, so we don't want to turn it over.
    Would you talk a little bit about that, and what you think 
we need to do to get to the bottom of this and try to do 
everything we can to protect our children?
    Ms. Birnbaum. First of all, I think you know that I am not 
in a regulatory agency, but in a research agency.
    Senator Udall. That is right.
    Ms. Birnbaum. I may have had many years at EPA, but I would 
like to stick to the research.
    I think the issue is that there is growing evidence, lots 
of evidence that chemicals can cause effects. We have known for 
years that pharmaceuticals, or the drugs--there are always 
black box warnings on drugs, do not take if pregnant. And the 
reason you don't take them is because they can harm the fetus 
as it grows.
    So we know that chemicals can impact things. Many chemicals 
are not tested at all. I think many of us do believe that it 
would be much better to have chemicals fully evaluated for 
their safety before they go on the market. The chemical that 
was of concern that was talked about in the cereal boxes 
yesterday is the chemical that my NTP actually has done some 
very limited testing on to test whether it was a mutagen or 
not, it caused genetic damage. But that is the extent of the 
testing that has been done for that.
    So I think it would be very important to have the testing 
done first. I think we have to really work on what we mean by 
testing. Because there is a pattern that has emerged that there 
are guidelines for how you do testing. And the problem is that 
guidelines that were established for science in the 1970s are 
really not up to what is needed in this century. We need to 
focus our efforts on using all the newest information, not 
necessarily things that were required 20 or 30 years ago to do 
these tests.
    The other point I would like to make, which is referring to 
something Dr. Anastas just talked about, which was the 
susceptibility and the interaction between genes and the 
environment, I think it is very, very clear that depending on 
your genetics, as well as maybe what your past exposures were, 
can alter your susceptibility. There is a paper that I just saw 
that is coming out that shows that some of the flame 
retardants, whether or not you see developmental neurotoxicity, 
at least in animal studies, is totally dependent on the 
genetics of the mouse that you test.
    So while mice are not men, they provide us a great deal of 
information about what may be possible in the human population.
    I think I will let Paul talk a little bit more about the 
regulatory agenda.
    Mr. Anastas. I will just say that prior to coming to the 
Environmental Protection Agency, I taught chemistry at Yale 
University. One of the things that we always taught our 
students is that when you introduce a new chemical into the 
world, when you make a new chemical in the lab, you need to 
characterize that chemical. And there is a wide range of 
analyses that are done in order to describe exactly what that 
chemical is.
    But yet traditionally part of that chemical 
characterization has not included its impact on human health or 
the environment. As long as that exists, where when we are 
describing a chemical, it doesn't include its impacts on 
humans, on the environment, on developing children, then we are 
going to be in the same situation. We need to have a fuller 
understanding. And the definition of performance when we are 
talking about chemicals, and even commercial chemicals, needs 
to include how it performs in terms of its role in the world, 
interacting with humans and the environment.
    Senator Udall. Thank you both for those answers.
    I am sorry, I have to leave, and I won't be able to hear 
the second panel. I have to preside over the Senate, but I am 
leaving you in the hands of two very capable Senators that I 
know are very concerned about this issue.
    Thank you very much.
    Senator Klobuchar. Thank you.
    First, Dr. Birnbaum, I am just trying to figure out the 
exact amount of money and trying to mesh these numbers here. 
You said it to Senator Boxer, it is like $9 million on 
research?
    Ms. Birnbaum. Nine million on autism research in fiscal 
year 2009. And approximately that in fiscal year 2010. But that 
is, in our total portfolio for all our neurodevelopmental work, 
is about $29 million.
    Senator Klobuchar. Right. That is what I just saw in your 
testimony.
    Ms. Birnbaum. It is about a third of the total 
neurodevelopment.
    Senator Klobuchar. So there is $29 million for research for 
neurodevelopmental work, and about a third of that is 
specifically for autism?
    Ms. Birnbaum. That is correct.
    Senator Klobuchar. I am just trying to figure out, we got 
from NIH the statistic that in the recovery act, we invested 
over $10 billion in NIH on new research on mental health, 
including at least $60 million devoted to autism diagnosis and 
treatment.
    Ms. Birnbaum. Under the stimulus package, NIH did have an 
initiative and has funded about $60 million of stimulus funds 
on autism. Much of that has to do with treatment and diagnosis.
    Senator Klobuchar. So you are differentiating that from the 
research of causes?
    Ms. Birnbaum. Our--for example, approximately $5 million of 
stimulus funding in autism is part of that $60 million that NIH 
as a whole was spending. There are about four or five NIH 
institutes that are very involved, for example, in the 
Interagency Autism Coordinating Committee and involved in 
autism research. So it is not just NIEHS.
    Senator Klobuchar. That makes a difference.
    The other thing I wanted to ask about was, we have had an 
incident in Minnesota, and I talked with these families in the 
Somalian community, we have a very large Somalian community in 
Minnesota. And they have had a very high incidence of autism. I 
don't know if you have heard about it, but the diagnosis is 1 
out of 28 of their children have autism.
    So I was just wondering how this possibly could fit in with 
the research that is going on. Of course they are searching for 
answers. What Senator Boxer has been talking about with 
clusters, although this is, they live in a similar area, but 
other kids that aren't Somalian don't have that high rate.
    Dr. Birnbaum and then Dr. Anastas.
    Ms. Birnbaum. There are some recent hypotheses that Vitamin 
D, or the absence of Vitamin D may be associated with an 
increase in autism. My understanding is that there are 
essentially no reports of autism in Somalia. Again, it is a 
developing country, they might not have the diagnosis.
    But the phenomenal cluster, I would say, actually of Somali 
children being reported with ASD in Minnesota and I think in 
some other Somali communities in the northern United States, 
people are at least suggesting that that might be related to 
not having enough Vitamin D. So that is a hypothesis that 
people are beginning to look at.
    Senator Klobuchar. Dr. Anastas.
    Mr. Anastas. I would just suggest that while this is 
certainly an important area of research, it does lend itself to 
something we discussed earlier, which is the genetic-
environment interactions rather than one or the other. This 
dance, if you will, would lend itself to people with genetic 
predispositions, not necessarily exhibiting a certain disorder 
in the absence of being exposed to certain triggers. Yet when 
they are exposed to certain triggers, they could exhibit those 
disorders.
    So it is an active area, or I should say, an important area 
of research that in my opinion needs to be emphasized.
    Senator Klobuchar. This interaction, and I suppose this 
could be an example where if, in fact, and I do believe the 
diagnosis in Somalia might be very limited. But if in fact they 
get more autism, the kids do, in the U.S., that it could be an 
interaction between some genetic component and then some kind 
of triggering factor, environmental factor.
    Ms. Birnbaum. This is the beauty of the EARLI study, which 
is recruiting 1,200 women who already have one autistic child. 
Because we know that if you have one autistic child you have a 
higher likelihood that a second child might be autistic, 
suggesting that there is clearly some genetic component to it.
    However, it is a little bit hard to--usually if you have 
one child, your environment doesn't change that much if you 
have a second child. So there is also the interaction going on 
here. But in the EARLI study, not only are we looking at every 
kind of environmental factor that we can think of, and that 
includes diet and it includes stress, but we are also looking 
at the genomics of these women and their children and their 
partners as well.
    Senator Klobuchar. Senator Boxer.
    Senator Boxer. A couple of questions. I want to home in on 
the one child, two child, three child; doctors studying that. 
What do we know? What are the chances, if you have had one 
autistic child, of having a second?
    Ms. Birnbaum. I believe you have about 10 percent chance 
that your next child might be. I think that is the approximate 
statistics, that about 1 in 10. So that is much higher than the 
1 in 110.
    Senator Boxer. Than the 1 in 110. So that leads you further 
to suspect that it is something either in the genes or the 
environment combined?
    Ms. Birnbaum. Right. When you have a genetic input, and not 
every child is impacted, then it says that there has to be 
something in addition to genetics that is causing the condition 
to appear.
    Senator Boxer. Do we have other neurological conditions 
that have been found to be caused by both genes and 
environment?
    Ms. Birnbaum. There is suggestion that many different 
certain things like schizophrenia or bipolar disorder, for 
example, an adult clearly may have an interaction. And we know 
that, for example, when you look at something like lead, which 
is a clear neurodevelopmental toxicant, that not every child 
has the IQ loss. You have to look at a whole population of 
children to see the shift.
    Senator Boxer. So is the ultimate--down the road cure for 
this, if this proves out, we don't know that, gene therapy?
    Ms. Birnbaum. I think that the importance of understanding 
environmental triggers of disease is that you can change your 
environment. But at least at this point, you can't change your 
genes.
    Senator Boxer. But isn't one of the goals of the reason we 
did all that funding for genes is to eventually do gene 
therapy?
    Ms. Birnbaum. That is certainly a possibility. But I think 
we can get to the environmental impacts more easily and more 
readily. And again, as Dr. Anastas has said several times, the 
effect of a gene may only be expressed in a given environment.
    Senator Boxer. Yes, sir.
    Mr. Anastas. I would just like to add that this area of 
epigenetics is emerging and being understood----
    Senator Boxer. What do you call it?
    Mr. Anastas. It is called epigenetics.
    Senator Boxer. E-P-I?
    Mr. Anastas. E-P-I. It is an emerging area of 
investigation. I would certainly describe it as in its early 
stages.
    But this is showing that having certain environmental 
interactions may trigger these genes to perhaps impair a gene's 
ability to the expression of a certain gene. The point that I 
want to make is that the early suggestions are that it wouldn't 
necessarily stop with the individual, but can be translated 
into future generations as well.
    Now, I would never suggest that this is an established, 
concluded science. I am saying that this is emerging science in 
an important research area.
    Senator Boxer. Let me just ask my last question. We know in 
America 1 in every 110 kids is born with autism. What do we 
know about other countries' data?
    Ms. Birnbaum. I don't know the exact statistics in other 
countries. I do know that there appears to be--the increase in 
autism appears to be in many, many countries. I think one of 
the issues that we keep getting is the differential diagnosis, 
are we changing our criteria, are we looking in a different 
way. It is clear in the U.S. that that doesn't explain the 
increase.
    Senator Boxer. So you would say, from what you know, there 
is a worldwide increase?
    Ms. Birnbaum. Certainly in many countries there appears to 
be. Certainly in developed countries anyway.
    Senator Boxer. I doubt that they have a lot of statistics 
in Somalia just because I don't think they have a health care 
system that is capable of doing what we do. But I certainly 
think, given what Senator Klobuchar has discussed about that 
cluster, it might be very interesting to look at at least the 
gene situation, and if that is somehow making these children in 
your State more vulnerable. I don't know if we have any data 
from Somalia.
    Ms. Birnbaum. We would certainly be eager to entertain a 
grant where someone proposed to study that population; it needs 
to be done, really, in a prospective fashion. And again, since 
there are so many children being diagnosed with autism in that 
population, you might be able to do something similar to what 
we are doing in Philadelphia and California and Maryland as far 
as recruiting in that population.
    Senator Boxer. The reason I think it is important--I was 
stunned with that number you said, 1 in 28 children.
    Ms. Birnbaum. Yes.
    Senator Boxer. That is a cluster. And I think we could 
maybe learn quite a bit.
    Anyway, I need to run off to my next obligation. I just 
wanted to say how much I will look forward to hearing about the 
next panel from today's Chair, and to thank everybody for being 
here. We are going to be taking action on a lot of these 
matters. I wanted to note when you mentioned pthalates; did you 
mention pthalates?
    Ms. Birnbaum. Yes, I did.
    Senator Boxer. We passed some very tough legislation; 
Senator Klobuchar and I serve on the Commerce Committee. We 
were able to ban pthalates in children's products. It was an 
enormous fight. It was an enormous, enormous, terrible, awful 
fight. We got into fights about rubber duckies and how, one of 
the people said, well, you know, these rubber duckies are fine. 
Well, yes, but if they have pthalates, they are not.
    So we managed to do it. But it is very tough to regulate 
this one chemical at a time. That is why the work you do is so 
very important. Because hopefully you are going to be able to 
I.D. for us a class of chemicals that may be problematic or 
will give us the road map we need so we don't have to just get 
into these arguments one particular chemical at a time.
    Thank you very much, Senator Klobuchar.
    Senator Klobuchar. Thank you.
    I want to thank our witnesses. It was enlightening. We know 
there is a lot more work to be done. Thank you for this update; 
I think it helps us to understand the funding but also the 
status of the research and learn some new things, like 
epigenetics.
    We look forward to our next panel. Thank you very much to 
both of you.
    If we could have our next panel come up.
    Welcome to our second panel. I see you are staying here, 
Dr. Anastas. Thank you for that, and Dr. Birnbaum, so we can 
hear your reaction to this later as well.
    Our first witness in this second panel, as has already been 
mentioned, is Dr. Isaac Pessah, who is the director of UC Davis 
Children's Center for Environmental Health and Disease 
Prevention. He is an expert on how environmental factors 
interact to influence neurodevelopment.
    Dr. Bruce Lanphear, in the middle, is the Director of the 
Cincinnati Children's Environmental Health Center, and is the 
principal investigator for research examining fetal and early 
childhood exposures to prevalent environmental hazards.
    Finally, I would like to extend a warm welcome to Mary 
Moen. Mary is a fellow Minnesota mother and is here today to 
share her and her family's experience of living with an 
autistic son.
    Is Max with you today? There you are, Max. Thank you for 
being with us.
    I understand, Max, that you are a real whiz with maps and 
directions; is that right? Maybe you could help my husband. 
Maybe I can hook you guys up.
    As well as your dad, and Mary's husband, Steve. Thank you 
for being here. And Mary is here with her family to help us put 
a real face on the stories behind autism and other 
neurodevelopment disorders. Thank you so much for coming from 
Minnesota.
    So we will get started with Dr. Pessah.

 STATEMENT OF ISAAC N. PESSAH, PH.D., DIRECTOR, DEPARTMENT OF 
  MOLECULAR BIOSCIENCES, COLLEGE OF VETERINARY MEDICINE, AND 
DIRECTOR, UNIVERSITY OF CALIFORNIA DAVIS CHILDREN'S CENTER FOR 
          ENVIRONMENTAL HEALTH AND DISEASE PREVENTION

    Mr. Pessah. Senator Klobuchar, thank you for giving me the 
opportunity to present testimony regarding environmental 
factors in autism risk.
    As you have already heard, autism spectrum disorders 
encompass a wide range of what we call phenotypic severities 
and co-morbidities, such as a high rate of seizure disorder and 
anxiety. ASD likely encompasses several disorders with distinct 
ways of getting there, or etiologies, and pathologies that 
converge on a common set of behavioral criteria.
    Although autism risk has strong heritability, it turns out 
that no single locus alone, or genetic address, is sufficient 
to account for the full clinical phenotype. Results from many 
genome-wide autism screens indicate that potential 
susceptibility genes are spread across the entire genome.
    Recently, several very rare genetic mutations, single 
nucleotide polymorphisms, de novo copy number variations and as 
you have heard, epigenetic factors which influence DNA 
methylation, and therefore expression of the DNA's message, 
were shown to contribute to the complex transmission of autism 
risk. So genetics alone cannot account for the majority of 
autism cases currently being diagnosed.
    There is a lack of full concordance between identical or 
monozygotic twins with some estimates ranging as low as 60 
percent, which leaves wide room for environmental triggers. 
Interactions among multiple genes are likely to contribute to 
various types of autism. Inheritable epigenetic factors and/or 
non-heritable environmental exposures are likely to 
significantly contribute to susceptibility and variable 
expression of autism and autism-related traits. It is therefore 
likely that constellations of epigenetic and environmental 
factors are contributing to the increased prevalence of ASD, as 
we have heard. And the rise cannot be fully accounted for by 
changes in diagnostic criteria.
    There is a critical need to identify environmental factors, 
including exposures to foreign chemicals or anthropogenic 
source and changes to the diet that contribute to autism risk 
and severity. The vast majority of public and private resources 
has and continues to support work on identifying genetic 
impairments associated with autism risk. From these studies we 
have learned that genetics alone cannot predict the majority of 
autism cases, the patterns of impairments, severity, nor can 
they predict the success for current treatment modalities.
    Moreover, we have learned that many of the molecular and 
cellular systems that have been associated with autism risk are 
the very same ones that are targets of environmental chemicals 
currently of concern to human health, and children's health in 
particular because of their widespread use. Current research is 
needed on definable factors that contribute to causing or 
protecting against autism.
    It is accepted that autism is a multi-factorial, meaning 
that there are multiple factors contributing to risk. 
Therefore, it is essential to bring together both studies of 
genes and environment to fully understand autism risk.
    We know that autism prevalence continues to increase 
dramatically, clearly implicating environmental factors in 
autism risk. We must identify which environmental exposures and 
combinations of exposures are contributing to the increased 
overall risk in the population and identify the most 
susceptible group within children, which are in themselves a 
highly susceptible group.
    Only by bringing together the concerted effort of multi-
disciplinary teams of scientists can we identify which of the 
more than 80,000 commercially important chemicals, and a subset 
of those, a very small subset have actually received sufficient 
study, contribute to neurological impairments with idiopathic 
autism. It is clear that there is a critical need to identify 
which chemicals in the environment influenced the same 
biological pathways known to be affected in autism and how this 
contributes to susceptibility. By far, limiting exposures to 
these chemicals is the only current way to mitigate and prevent 
autism susceptibility in individuals.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Mr. Pessah follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Senator Klobuchar. Thank you very much.
    Dr. Lanphear.

STATEMENT OF BRUCE LANPHEAR, M.D., MPH, SENIOR SCIENTIST, CHILD 
  AND FAMILY RESEARCH INSTITUTE, AND PROFESSOR, SIMON FRASER 
UNIVERSITY, VANCOUVER, BRITISH COLUMBIA, AND ADJUNCT PROFESSOR, 
         CINCINNATI CHILDREN'S HOSPITAL MEDICAL CENTER

    Dr. Lanphear. Thank you very much for the opportunity to be 
here today.
    I wanted to focus my testimony on other neurodevelopmental 
disorders, because we have talked quite a bit about autism as a 
window into why we should be concerned about chemicals, 
particularly as they might relate to autism.
    Children's environmental health has grown tremendously in 
the past decade or two. It has been fueled by the emergence of 
new morbidities or diseases in children. Research has shown 
that fetus and child are particularly vulnerable to 
environmental influences and toxicants in particular. Mounting 
evidence is implicating environmental exposures as major risk 
factors for some of the most common diseases and disabilities 
in children. Finally, research indicating that many diseases of 
industrialized societies in adults have their origins in early 
childhood. So what happens during childhood has implications 
for a person's ability throughout life to contribute.
    In short, and in contrast--and this is important--in 
contrast with many other types of research, this field of 
research offers tremendous promise and potential to prevent 
many of the diseases affecting America's children.
    One in six American children has a developmental problem, 
from a subtle learning disability to overt behavioral disorders 
such as ADHD or autism. Although the data are sparse, many of 
these diseases appear to be rising. The findings from some of 
the most thoroughly studied and widely dispersed environmental 
toxicants--such as lead, tobacco, PCBs, and mercury--indicate 
that exposures to exceedingly low levels are risk factors for 
deficits in intellectual abilities and executive functions. 
Executive functions are those things that distinguish us most 
clearly from other animals. None of us would be sitting here 
today if we didn't have good executive functions.
    So this is becoming increasingly important, if we want to 
try to make sure that children can contribute to society.
    We also know that they are major risk factors for behavior 
problems such as ADHD and criminal behavior. These conditions 
can severely impair a child's ability to succeed in school, to 
interact socially. They can elevate a child's risk for violent 
and criminal behaviors. And they can dramatically diminish 
their ability to contribute to society.
    We have heard about several other new emerging toxicants. 
And there is indeed emerging evidence that a whole host of new 
environmental chemicals, many of which are routinely found in 
pregnant women and children, such as bisphenol-A, flame 
retardants, pesticides, pthalates, and airborne pollutants, are 
associated in early studies with intellectual deficits or 
behavior problems although the evidence is not as conclusive as 
some of the more established toxicants.
    Much of the research I quoted from was from the NIEHS USEPA 
Children's Centers in collaboration with the Centers for 
Disease Control.
    I wanted to share just a few highlights of the Cincinnati 
Children's Environmental Health Center to highlight the impact 
of a low-level toxicant, lead, on both children and society as 
an indicator of the extent of the seriousness of what we have 
always thought of as a subtle problem. In a series of studies 
we found an increase in blood lead levels from less than 1 
microgram per deciliter to 10 micrograms per decaliter, which 
is well below the CDC's level of concern, were associated with 
a 6 to 7 IQ point decrement. On a population level a shift in 
IQ of 5 points across a population in the United States would 
mean 3 and a half million more children who qualify as being 
mentally retarded. These are not subtle effects.
    We also confirmed early reports implicating childhood lead 
exposure in the epigenesis of ADHD. As Dr. Birnbaum pointed 
out, we estimated that one in three cases of ADHD in U.S. 
children--that is over 1.5 million cases--could be attributed 
to prenatal tobacco exposure--that is when the mom smokes--or 
childhood lead exposure.
    Finally, we have confirmed that childhood lead exposure is 
a risk factor for impaired brain development, using brain 
imaging studies, again, focused in particular on the prefrontal 
cortex, that area responsible for executive function, as well 
as criminal arrests in young adults. Collectively, these and 
other studies suggest that a large proportion of crimes and 
homicides in the United States over the past century can be 
attributed to lead toxicity.
    Now, we don't tend to think of low-level chemical exposures 
as being of any consequence. But the levels we are talking 
about are the same concentrations that we try to achieve with 
therapeutic doses of anti-psychotics. We know these low-level 
chemicals can have an impact on behavior.
    It has been estimated, using these studies, that for every 
dollar we invest in preventing lead exposure, we would benefit 
by $17 to $20, or annually, somewhere between $30 billion to 
$34 billion. I focused on just one toxicant. But I think they 
indicate the importance of this kind of exposures that occur.
    Finally, let me just end by saying that we have talked a 
bit about the research. That is increasingly important. Still, 
we can't ignore the pattern of pathology we have seen with 
these other established toxicants: lead, tobacco, PCBs, and so 
forth. It is clear to me that we know enough to require pre-
market testing for a whole host of other environmental 
chemicals, particularly those that are used in high volumes. 
The alternative, to continue to experiment on our children, is 
no longer tenable.
    We should also look back to the history of drug 
regulations. For 50 years prior to drug regulations taking 
effect in the 1960s, there was a handful of people arguing that 
we needed better regulations. It took the thalidomide epidemic 
for us to take action. Perhaps autism is the equivalent for 
environmental chemicals.
    Thank you.
    [The prepared statement of Dr. Lanphear follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  
    
    Senator Klobuchar. Thank you very much.
    Ms. Moen, thank you for being here.

                     STATEMENT OF MARY MOEN

    Ms. Moen. Thank you, Senator Klobuchar.
    I am happy to be here today with my husband, Steven, and my 
10-year-old son, Max, from our home in Minneapolis, Minnesota. 
Thank you for the opportunity to speak with you about the 
effect of autism on my family.
    When Max was 3 years old he was diagnosed with an autism 
spectrum disorder. The diagnosis came after a year of fear and 
frustration as our bright and active baby had become 
increasingly agitated and aggressive as a toddler. As a pre-
schooler any social situation was very challenging for Max. He 
became difficult to manage outside the home safely and was 
increasingly bothered by loud and high pitched noises, smells, 
and touch.
    His reactions to things he didn't like were explosive and 
often dangerous. His brother, Theo, was born during this time. 
And the stress of a new baby and an uncontrollable 3-year-old 
was more than we could bear.
    We took Max for lengthy evaluations through Minneapolis 
public schools and medical assessments at two different autism 
specialty centers. The school district gave him an educational 
label of autism spectrum disorder at age 3 and a half. The 
doctors' and psychologists' reports gave similar findings.
    At the time he was diagnosed, many around me were asking 
how Max got autism. We suspect a genetic link, but the time it 
didn't matter. I was focused on moving forward to help my son, 
who was by now so obviously different from his peers. 
Everything we read about treating autism told us that early 
intervention was key. We bought books, went to conferences and 
begged for consultations with over-scheduled experts in the 
field. We learned what methods would be most effective for Max 
but were frustrated to find waiting lists as long as 6 to 12 
months at facilities that offered these services.
    I quit my teaching job, and my husband cut back on his 
orthopedic surgery practice. It became our mission to put 
together an appropriate treatment plan that would address Max's 
unique needs. We worked to tweak this plan for the next few 
years of Max's life.
    When he began kindergarten at age 6, we learned that our 
local community school did not have an autism program. Although 
Max's reading and math skills were far above grade level, his 
poor social skills and lack of self-control meant he needed 
more support. We had to send him to a school outside of our 
community. And doing so created even more impediments to making 
friends, and his social isolation was not improved.
    Our goal was to bring his skills to a point where he could 
be fully mainstreamed and moved to our community school by 
first grade. This took a lot of hard work, including doubling 
up on therapy and intensive summer programing. He has now been 
at the school for 3 years.
    Life was somewhat easier now, but not without struggles. We 
made the difficult decision to give Max medication to control 
his impulses and stay calm. Meltdowns come weekly, rather than 
daily. Things like playing on a sports team, making friends, 
and going to summer camp that are just natural steps in a 
neurotypical child's life come carefully planned and prepared 
for Max. Setting him up for success takes understanding his 
challenges as well as a tremendous amount of time and 
forethought.
    So while things look pretty good right now, we never really 
know what will set Max back or how long he will need our help. 
We hope he will continue to excel academically and go on to 
college and be a productive and happy adult.
    In contrast, Max's 48-year-old aunt, who we suspect is also 
in the autism spectrum, is unemployed, socially isolated, and 
entirely dependent on her aging parents. People like her, with 
undiagnosed and untreated autism, are an example of autism's 
costs to our economy and society.
    I now feel like I can look beyond our situation and address 
some of the questions others were asking me when Max was first 
diagnosed. There are many unanswered questions that can only be 
answered through more research. As families of children with 
autism, we each struggle with the why. The manifestations of 
autism are as diverse as the families and communities from 
which children with autism come.
    I do not believe we can come to a simple conclusion when it 
comes to the cause and effects of such a complex disorder as 
autism. While there is an urgent and growing need for resources 
for early identification and intervention, ongoing treatment, 
medical care, and social services for children and adults with 
autism, it is also imperative that we focus resources on 
continued research so that we can one day identify its cause. 
Until we have done the extensive research necessary to 
understand autism, we cannot leave any stone unturned or rule 
out any possible factors as a cause of this disorder.
    Thank you for the opportunity to share my story with you 
today. I welcome any questions you may have.
    [The prepared statement of Ms. Moen follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Senator Klobuchar. Thank you so much. Thank you for your 
courage.
    She did a pretty good, right, Max? You liked it. You were 
good.
    So thank you for that, and all the work that you have done. 
Your story sounds eerily similar to some of my friends who 
basically gave up their jobs as well and focused on trying to 
figure out what was wrong and then how to fix it. I would think 
knowing the root cause would obviously make it a lot easier in 
figuring out the treatment.
    Could you just talk first about some of the impediments you 
had in getting treatment? I know Minnesota is one of the 
medical meccas and a good place to be when things go wrong. But 
do you want to talk about some of the obstacles and what you 
think could be done to improve that?
    Ms. Moen. Definitely. Initially, there is a lot of shame. 
Because the behaviors he was exhibiting were more embarrassing 
than anything else. We called it the walk of shame, when we 
would go walk down the hall to the preschool teacher to find 
out what happened that day. So at first, just admitting that 
there was something that was different from his peers.
    It was fairly easy, living in a metro area, with the 
Minneapolis public schools doing early childhood screening as 
early as we needed it, to get him to special education. But the 
appointments to get in with an autism specialist were 6 months 
long, just to get a diagnosis. We didn't know it was autism at 
that time, but we were looking at all of our different options.
    Senator Klobuchar. And when you are here today, when you 
listened to the testimony, I know you are out there about some 
of the research that is going on, and this complex interaction, 
as you have acknowledged, that it may not be just one silver 
bullet, the solution, between genetics and environmental 
factors, what is your reaction to that? You mentioned that you 
thought it could have a genetic link, because of this aunt, I 
assume.
    Ms. Moen. Yes.
    Senator Klobuchar. So what has been your own journey in 
trying to follow the research and figure out what is going on?
    Ms. Moen. My journey has been very recent, because I truly 
haven't felt that I have been able to look outside of my little 
world until very recently. I am not surprised, because I have 
two sons. They both have the same aunt. One of them is 
neurotypical; one of them is not. And there have always been 
questions about what it could be, beyond that. I don't think we 
can stop looking at that.
    Senator Klobuchar. Thank you.
    Dr. Pessah, we were talking earlier with Dr. Birnbaum about 
this, the CHARGE study and what has been going on there. She 
mentioned that you could help to further illuminate, there must 
be preliminary findings, because it is not completed?
    Mr. Pessah. There are.
    Senator Klobuchar. On the immune system and the relation.
    Mr. Pessah. The immune disregulation in children with 
autism seems to be standing out based on comparisons with case 
control comparison groups, including those with developmental 
delays in the study without autism and neurotypical children. 
If I had to sort of summarize what the major impairments are in 
the immune system, it would be a pro-inflammatory sort of--pro-
inflammatory behavior of the immune cells in the presence of 
antibodies that direct or recognize proteins within the brain.
    We found these, or immunologists found these both in the 
children, but also in the mothers. We have no idea how these 
auto-antibodies, as they were called----
    Senator Klobuchar. I got an A in high school chemistry, but 
then I forgot everything the next week after the test. So could 
you just try to explain that a little in layman's terms, what 
you are talking about here?
    Mr. Pessah. Sure. Pro-inflammatory behavior of the immune 
system is essentially one hallmark of immune dysfunction. Pro-
inflammatory immune system can damage both immune responses but 
also is now known to influence neurodevelopment, especially if 
it occurs at very precise times during development.
    Senator Klobuchar. So pro-inflammatory, is it kind of a 
hyper-immune system, or it reacts a lot?
    Mr. Pessah. Essentially hyper-responsive in a particular 
way.
    Senator Klobuchar. All right, so you have this hyper-
responsive immune system, and you mentioned that which, I guess 
one could argue that, is that possibly it reacts to some 
environmental factor?
    Mr. Pessah. That is a very good point. We have actually 
started to examine whether immune cells from children with 
autism respond differently to what we call zenobiotic 
exposures. The two that we have examined thus far is mercury, 
and the other are the flame retardants. We picked the latter 
because we now have evidence that flame retardants and others 
have presented that flame retardants interfere with both the 
developing nervous system and the immune system, possibly 
through common mechanisms.
    Senator Klobuchar. And what was the thing you said about 
the protein in the cells? What was that about?
    Mr. Pessah. That auto-antibodies are those antibodies which 
recognize self. That is not really supposed to happen. Because 
it can promote disease.
    So in the mothers at risk for giving birth to an autistic 
child, we found that a subset of them have antibodies that 
actually can react with fetal proteins. What that means is that 
during gestation these antibodies can cross the placental 
barrier and have an influence, or have the possibility of 
having an influence on the developing fetus.
    Again, we don't know why mothers at risk would have these 
auto-antibodies. This is something that we are examining now.
    Senator Klobuchar. In your testimony, and this is along the 
same lines, you said that genetics alone cannot account for the 
majority of autism cases currently being diagnosed. Do you want 
to elaborate on that?
    Mr. Pessah. Yes. There are some genes that have been 
associated with autism. But when you look at the percent of 
cases which have these genetic malfunctions, for each gene it 
is typically less than 1 percent. And in cumulative total, I 
think the estimate may be as high but probably no greater than 
20 percent, if you add all those up.
    So there is a large fraction of autism that really, at 
least at this point, has not been attributed to genetic 
contribution.
    Senator Klobuchar. I think you heard my story of these 
Somalian kids in Minnesota. Maybe you have heard about this 
before. Do you have any opinion on that and what could be going 
on there?
    Mr. Pessah. It is certainly intriguing and deserves more 
study.
    Senator Klobuchar. We will get you the information on it. 
That would be helpful.
    UC Davis is working on a project called MARBLES, right, 
Markers of Autism Risk in Babies Learning Early Signs, to 
identify early predictors of autism, whether genetic or 
environmental? Can you be more specific in describing the 
aspects of this project and what the intended goals are?
    Mr. Pessah. This project, MARBLES, is recruiting women at 
high risk of giving birth to an autistic child. This is based 
on having inclusion criteria that the women must have already 
at least one autistic child--biological child--in the family. 
The goals of the study are to study the biology of the women 
involved, including taking blood samples, urine samples, labor 
and delivery samples, as well as following the child for the 
first 3 years after birth.
    Such a longitudinal study is now being modeled. It was the 
predecessor of the EARLI study which Dr. Birnbaum described. 
Thus far, we have about 170 women enrolled. Our target is about 
200, at least for this project period. The retention of women 
in the study, because it is a very arduous study for the 
participants, has been better than 90 percent. So we are very 
pleased.
    Senator Klobuchar. Very good.
    I guess this could be both of you, I will start with Dr. 
Lanphear.
    You mentioned the emerging evidence that new environmental 
chemicals have been associated with autism or other 
neurodevelopmental disorders. I think you focused on some of 
the other ones. But that more research is needed. Can you 
elaborate on the information gap, and do you think the NIH 
priorities are on track, or the research that is being done 
across the country?
    Dr. Lanphear. Yes. First, I should say that using the same 
framework, it is going to be extraordinarily important to begin 
to understand mechanisms about how these chemicals may impact 
children and at different stages of life. What we have begun to 
do much more carefully over the last decade or so is to use 
biomarkers, measure how much of a chemical actually a child or 
an unborn child is exposed to, and then to see how that plays 
out, how it impacts the trajectory of learning behaviors and so 
forth.
    So those kinds of studies will continue to be 
extraordinarily important. One example has an interaction that 
we have talked about, I think Dr. Anastas mentioned, if we look 
at children and ADHD, if the mother smokes, the child is about 
2 and a half times more likely to have ADHD. If the child is 
exposed to lead, higher levels of lead in childhood, again 
about a 2 and a half-fold increased risk.
    Together, if they are exposed to high levels of both 
tobacco and lead, which are both dopaminergic toxins, impacting 
particular areas of the brain, they are over 8 times more 
likely. So this idea of looking at interactions is really quite 
important. In a sense, you could think of it in very much the 
same way as genes and the environment. When they come together 
there can be tremendous risks for different kinds of problems.
    Having said all that, while it is critical to do more of 
this research it seems to me that we do know enough to take 
action and develop regulations. Now, even if we develop all 
those regulations, there is still going to be plenty for all of 
us to do. We are not going to be out of work, although that 
would be wonderful, if you could develop regulations that would 
put me out of work.
    [Laughter.]
    Dr. Lanphear. But I do think the balance here is making 
sure that we act on the evidence that we have. And that doesn't 
mean that each new chemical has to be studied to death. We 
could look at the pattern that we have seen with other 
environmental toxicants. And based on that, just like we took 
regulations, took and developed regulations based on drugs, we 
can develop the regulations. And yet of course there is still 
quite a bit that needs to be done to look at these new emerging 
chemicals, some of which are acting as endocrine disruptors, 
others as neurotoxicants, or traditionally, like lead, impact 
other parts of the body.
    Senator Klobuchar. You mentioned the biomarkers. Could you 
go into a little detail about how that will help, not only with 
trying to find root causes, but prevention, diagnosis, 
treatment?
    Dr. Lanphear. That is extraordinarily important. In the 
past we might have to rely on asking a pregnant woman, how 
close did you live to this plastics plant. That is not a very 
good way of measuring exposure. Now what we can do is take 
exquisite measures of exposures that might occur over 
pregnancy, for example.
    So in our Cincinnati home study, what we have done is by--
--
    Senator Klobuchar. By exquisite, you don't mean like 
jewelry. What do you mean?
    Dr. Lanphear. Exquisitely accurate measures of chemicals 
that the pregnant woman is exposed to in either her diet or 
airborne exposures. And look at those at different times. So we 
have measures three times during pregnancy in the Cincinnati 
home study, at 16 weeks gestation, 26 weeks, and at delivery. 
What we can do is begin to ask questions, not only about 
exposures throughout pregnancy, by taking the sum of those, but 
whether there is a difference, for example, in the timing of 
exposure.
    So when we looked at bisphenol-A, a plastic, we found that 
exposures at 16 weeks gestation were associated with acting out 
type behaviors in the daughters but not in the sons. Now, that 
needs to be confirmed. That is the type of research that we 
can't make policy based upon one study. But what it suggests is 
the timing is important, looking sometimes at gender 
differences or sexually dimorphic behavior differences, based 
on a chemical.
    But we couldn't have done that without a biomarker. So it 
is really critical to be able to measure exposures to 
chemicals.
    Senator Klobuchar. I get that.
    Dr. Pessah, do you want to add anything with the 
biomarkers? Because I understand them now. We are almost on 
equal footing. I am kidding.
    [Laughter.]
    Mr. Pessah. I think that by identifying classes of 
compounds, in the future we may be able to invoke a 
precautionary principle where, if a chemical has chemical 
properties that will know to be bioaccumulated--that is, 
retained in the body--if children are more exposed, as you 
mentioned, that we might be able to predict, as opposed to 
having to test every chemical.
    There are various levels of testing chemicals, from the 
cellular, the mechanistic, to the epidemiological approach. 
Given the vast number of high volume and even greater number of 
other chemicals in the environment, it behooves us to try to 
find some commonalities amongst chemicals in their mechanism of 
producing harm.
    Senator Klobuchar. What about this fact that Dr. Lanphear 
was talking about, that boys seem to have a higher rate of 
autism? I think that is correct. I am just trying to understand 
this. He talked about the interrelationship with gender. Any 
ideas there?
    Mr. Pessah. I think that is an important factor that needs 
to be acknowledged in current and future research, that 
obtaining cells from males may be different than obtaining 
cells from females, in terms of the level of susceptibility, or 
the nature of the response to environmental chemicals. So we 
need to keep that in mind.
    Senator Klobuchar. So if we could just write you a blank 
check right now, which sadly we can't, what would you most, if 
you could just conduct the research that you wanted to, in a 
big way, and I know there are limits on research, but if you 
could do that, where would you want to focus the research? No 
constraints from anyone about telling you what it should be or 
what pot of money it comes from. If you just wanted to figure 
out an answer for Mary Moen's question about why, what would 
you do?
    Mr. Pessah. Because of the complexity of autism spectrum 
disorders, our lesson learned at UC Davis is that you need a 
multi-disciplinary approach. You need to have immunologists 
talk to neuroscientists talk to toxicologists and pool their 
efforts, integrate their efforts in understanding this very 
complex disorder. So granted, very large science will address 
more global issues.
    I think concerted studies of specific populations will give 
you valuable answers that could lead to mitigation of autism.
    Senator Klobuchar. Do you want to answer that, Dr. 
Lanphear?
    Dr. Lanphear. Yes. Given the prevalence of autism, even 
though it has risen in recent years, I think the kind of study 
you would want to do would be prospective, it would be large. 
And you would have multiple measures of various chemical 
exposures, or the opportunity to go back, using a repository, 
collecting blood or urine and so forth and storing it. And 
looking at the children as they develop.
    That would of course be augmented by a whole host of other 
types of studies, looking very specifically at questions. But 
that kind of large birth cohort study, like the National 
Children's Study, I think is going to be an essential part of 
understanding the risk factors for the development of autism 
and ASD.
    Senator Klobuchar. Very good.
    I want to thank all of you for coming. We will keep the 
record open for 2 weeks, and I am sure my colleagues may have 
some follow up questions. But I wanted to commend you for the 
work you are doing. I think that Ms. Moen said it best when she 
said she is just now, after struggling and doing everything for 
Max, gotten out of that. I know how that one feels, that one 
box, to start stepping back and asking why. I think that is 
what a lot of us are doing on behalf of moms and dads like her 
across the country.
    It does appear that the solution may not be an easy one, 
but that this interaction with genetics and the immunology as 
well as the environmental factors is where we should head. So I 
want to thank you for all the research you have done.
    Dr. Pessah, I think you should try to go head to head with 
Max on a math question when we are done, and see how he does 
there. Because he is supposed to be a math whiz. We will see 
how he does.
    So thank you, everyone, for coming. The hearing is 
adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    As a father and grandfather, protecting the health of 
children--born and unborn--is a personal priority for me. I 
would like to thank Senator Klobuchar for scheduling this 
important hearing to discuss new developments in autism and 
other neuro-development disorders.
    Autism and related developmental disorders affect 
approximately 1 in 110 births and are growing at an alarming 
rate of 10 to 17 percent per year. At this rate, there are 
estimates that the prevalence of autism could reach 4 million 
Americans in the next decade. Autism and similar disorders have 
no ethnic, racial, or social boundaries and can affect any 
family or child indiscriminately. Autism has increasingly been 
identified as a mostly complex genetic disorder, but some 
environmental factors may also be linked to its causes.
    I have always championed the use of the best available 
science to properly assess the risks these devastating 
disorders have on children and families. Due to the increasing 
rates of autism in children, the Committee must ensure that the 
best available scientific research is conducted and appropriate 
funding is directed toward these causes.
    Both the Environmental Protection Agency and the National 
Institute of Environmental Health Sciences have dedicated 
resources to research the environmental health factors 
associated with autism, and I look forward to hearing from the 
witnesses on the status of these ongoing studies. I invite the 
agencies and experts to identify areas where there may be 
inefficiencies or lack of sufficient information so we can 
address these issues and make certain that proper resources are 
being dedicated to the most appropriate areas of study.
    The rise in autism is a very serious problem facing our 
Nation's children and families, and I will stay committed to 
discovering the causes and finding treatments. I look forward 
to hearing the results of the agencies' findings and how the 
Federal Government can enhance and improve its research 
efforts.

                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
